A

No. 20-3618
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CURTIS MOODY,
Petitioner-Appellant,
V.

CHAE HARRIS, Warden,
Respondent-Appellee".

)
)
)
)
)
)
)

FILED

Aug 26, 2020
DEBORAHS. HUNT, Clerk

ORDER

1
)

Before: KETHLEDGE, Circuit Judge.

Curtis Moody, a pro se Ohio prisoner, appeals the district court’s judgment dismissing his
petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. Moody moves this court for a
certificate of appealability, for leave to proceed in forma pauperis on appeal, and for appointment
of counsel.
Moody was charged with murder, felonious assault, and having weapons under a disability
-in connection with the 2014 shooting death of Jeffrey Farr. A jury convicted Moody on twocbunts
of murder and two counts of felonious assault; each count included a firearm specification, The
trial court merged the murder and felonious assault charges into one murder charge, merged the
firearm specifications, and sentenced Moody to fifteen years to life for the murder charge and to
three years for the firearm specification. The trial court convicted Moody of one count of having
weapons while under a disability, for which he received a three-year consecutive sentence. On
direct appeal, the Ohio Court of Appeals affirmed Moody’s convictions. State v. Moody,
No. 26926, 2016 WL 7496642 (Ohio Ct. App. Dec. 23, 2016), perm. app. denied, 75 N.E.3d 237
(Ohio 2017) (table).
After unsuccessfully seeking state post-conviction relief, Moody filed a federal habeas
petition raising five grounds for relief: (1) the trial court erred in failing to suppress the photo

No. 20-3618
-2identification; (2) the trial court’s refusal to grant a continuance based on newly disclosed evidence
denied him a fair trial; (3) the trial court abused its discretion in allowing Zaneta White and Rhonda
Alves to be designated as court witnesses; (4) he was prejudiced and denied due process and a fair
trial by the introduction of hearsay statements by multiple witnesses; and (5) the introduction

of
an autopsy diagram constituted fraud upon the court. Moody amended his habeas petition to
include an additional ground for relief: the trial court allowed ex parte communications about a
note from the jury and violated his right to be present at all stages of the trial. In his traverse brief,
Moody attempted to raise additional claims of prosecutorial misconduct and cumulative f-rrr.r___
A magistrate judge recommended that Moody’s habeas petition be dismissed with
prejudice. After Moody filed objections, the district court returned the case to the magistrate judge
for a supplemental report. The magistrate judge reconsidered the case in light of Moody’s
objections and again recommended dismissal of the habeas petition. Over Moody’s objections,
the district court adopted the magistrate judge’s original and supplemental reports and
recommendations, dismissed the habeas petition, declined to issue a certificate of appealability,
and denied leave to proceed in forma pauperis on appeal. This timely appeal followed.
Moody moves this court for a certificate of appealability as to all eight claims raised in his
original habeas petition, his amended habeas petition, and his traverse brief. See Fed. R. App.
P. 22(b). To obtain a certificate of appealability, a petitioner must make “a substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “A petitioner satisfies this standard
by demonstrating that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). Where the
district court dismisses a habeas claim on procedural grounds, a certificate of appealability should
issue if the petitioner “shows, at least, that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.” Slack v. McDaniel,
529 U.S. 473, 484 (2000).

No. 20-3618
-3Photo Identification
Moody first claimed that the trial court’s failure to suppress identification evidence violated
his right to due process. A detective prepared a photo spread using

a computer program, and

another officer not involved in the investigation showed it to an eyewitness, Charles Dozier, who
identified D.W., not Moody, as the shooter. The detective failed to save that photo spread and
generated new photo spreads, which did not include D.W.’s photo. Other eyewitnesses identified
Moody as the shooter from the new photo spreads. Moody argued that the trial court should have
suppressed those identifications because the subsequent photo spreads did not include D.W.’s
photo.
“[Cjonvictions based on eyewitness identification at trial following a pretrial identification
by photograph will be set aside on that ground only if the photographic identification procedure
was so impermissibly suggestive as to give rise to a very substantial likelihood of irreparable
misidentification.” Simmons v. United States, 390 U.S. 377, 384 (1968). The Ohio Court of
Appeals concluded that the identification procedure was not unduly suggestive, pointing out that
the photo spreads were administered by officers who were not involved in the investigation and
included photos of individuals with similar facial features and hairstyles and with similar
backgrounds. According to the Ohio appellate court, the failure to include D.W.’s photo in
subsequent photo spreads did not render those photo spreads unduly suggestive.
An identification procedure is unduly suggestive if “the procedure itself steered the witness
to one suspect or another, independent of the witness’s honest recollection.” Wilson v. Mitchell,
250 F.3d 388, 397 (6th Cir. 2001). Moody failed to demonstrate that the photo spreads steered the
eyewitnesses toward him simply because the photo spreads did not include D.W.’s photo. Nor did
Moody show bad faith on the part of the detective who failed to save the initial photo spread. See
Arizona v. Youngblood, 488 U.S. 51, 57 (1988). Reasonable jurists therefore could not debate the
district court s conclusion that Moody was not entitled to habeas relief on his identification claim.

No. 20-3618

-4Detiial of Continuance
Moody next claimed that the trial court’s refusal to grant a continuance based on newly
disclosed evidence denied him a fair trial. According to Moody, the prosecution’s late disclosure
of still photographs of Farr’s body, taken from the police cruiser video, violated Brady v.
Maryland, 373 U.S. 83 (1963), and warranted a continuance. The Ohio Court of Appeals found
no Brady violation because the prosecution disclosed the video and the photographs prior to trial
and because Moody failed to show that he was prejudiced by the late disclosure of this evidence.
The Ohio appellate court concluded that the trial court did not abuse its discretion in fail ing to
continue the trial given the lack of any apparent prejudice or any specific request for a continuance.
On habeas review, the district court determined that the photographs did not constitute
Brady material. The Brady rule requiring the disclosure of evidence “favorable to the accused”
applies to “impeachment evidence as well as exculpatory evidence.” Strickler v. Greene, 527 U.S.
263, 280-81 (1999). Moody admitted that the prosecution used the photographs to bolster the case
against him and failed to explain how the photographs were exculpatory or could have been used
for impeachment purposes. And, given that Moody failed to establish any prejudice from the
prosecution’s late disclosure of the photographs, the trial court’s failure to grant a continuance did
not rise to the level of a due process violation. See Foley v. Parker, 488 F.3d 377, 389 (6th Cir.
2007). Jurists of reason therefore could not debate the district court’s dismissal of this claim.
Court Witnesses
As his third ground for relief, Moody argued that the trial court abused its discretion in
designating Zaneta White, his children’s mother, and Rhonda Alves, his mother, as court
witnesses. See Ohio R. Evid. 614(A). The district court dismissed Moody’s claim as a state-law
issue committed to the trial court’s discretion. See Estelle v. McGuire, 502 U.S. 62, 67-68 (1991)
(“[I]t is not the province of a federal habeas court to reexamine state-court determinations on statelaw, questions.”). Reasonable jurists could not disagree with the district court’s dismissal of
Moody’s claim as not raising a constitutional issue.

No. 20-3618
-5Hearsav Statements
Moody’s fourth ground for relief asserted that he was prejudiced and denied due process
and a fair trial by the introduction of hearsay statements by multiple witnesses. The district court
concluded that Moody’s state-law evidentiary issue was not cognizable on federal habeas review.
See Wilson v. Sheldon, 874 F.3d 470, 475 (6th Cir. 2017). Moody failed to demonstrate that the
trial court’s evidentiary rulings “were so fundamentally unfair as to violate [his] due process
rights.” Coleman v. Mitchell, 244 F.3d 533, 542 (6th Cir. 2001). Accordingly, jurists of reason
could not debate the district court’s dismissal of Moody’s hearsay claim.

____

Fraud Upon the Court
^
I
As his fifth ground for relief, Moody argued that the introduction of an autopsy diagram
|

■

'

'

constituted fraud upbn the court. Defense counsel used the diagram to cross-examine the chief
I

deputy coroner, who! testified that he did not prepare the diagram and had never seen it before and
that the diagram was inaccurate. The district court concluded that Moody procedurally defaulted
his fraud-on-the-coUrt claim because he failed to raise it on direct appeal and that ineffective
!

assistance of appellate counsel could not serve as cause to excuse his procedural default because
i

he procedurally defaulted any ineffective-assistance claim by filing his Rule 26(B) application too
late. See Edwards v.j Carpenter, 529 U.S. 446,452-53 (2000); Durr v. Mitchell, 487 F.3d 423,432
(6th Cir. 2007). The! district court went on to find that Moody’s fraud-on-the-court claim failed on
the merits.

I

Fraud on the! court consists of conduct: “1) on the part of an officer of the court;
that 2) is directed to the judicial machinery itself; 3) is intentionally false, willfully
blind to the truth, or is in reckless disregard of the truth; 4) is a positive averment
or a concealment when one is under a duty to disclose; and 5) deceives the court.”
Johnson v. Bell, 605 F.3d 333, 339 (6th Cir. 2010) (quoting Carter v. Anderson, 585 F.3d 1007,
1011 (6th Cir. 2009)). Defense counsel, not the prosecution, introduced the autopsy diagram, and
the chief deputy coroner testified that the diagram was neither prepared by him nor accurate.
Reasonable jurists could not debate the district court’s determination that Moody’s claim was
procedurally defaulted and that the circumstances did not support a claim for fraud on the court.

No. 20-3618
-6Ex Parte Communications
Moody amended his habeas petition to add a claim that the trial court allowed ex parte
communications about a note from the jury and violated his right to be present at all stages of the
trial. The district court concluded that Moody’s claim was procedurally defaulted because he
failed to raise it on direct appeal. See Durr, 487 F.3d at 432. The district court went on to
determine that Moody’s claim failed on the merits. There were no ex parte communications:
attorneys for both sides were present during the in-chambers conference about the jury’s note.
Moody’s absence from the in-chambers conference did not violateJiis constitutional rights. See
Buell v. Mitchell, 274 F.3d 337, 363-64 (6th Cir. 2001). To the extent that Moody challenged the
trial court’s decision to respond to the jury’s note by replaying portions ofjail phone calls, defense
counsel agreed to that course of action and therefore waived any objection. For these reasons,
reasonable jurists could not debate the district court’s dismissal of Moody’s claim related to the
jury’s note.
Prosecutorial Misconduct
Moody asserted that the prosecutor’s conduct during direct examinations and improper
remarks during closing argument prejudiced him and deprived him of a fair trial. Moody first
raised his prosecutorial misconduct claim in his traverse brief. Reasonable jurists therefore could
not debate the district court’s conclusion that Moody’s prosecutorial misconduct claim was not
properly before the court. See Tyler v. Mitchell, 416 F.3d 500, 504 (6th Cir. 2005) (holding that
an argument first presented in the petitioner’s traverse “was not properly before the district court
and that “the district court did not err in declining to address it”).
Cumulative Error
Moody asserted that the cumulative effect of these claimed errors denied him a fair trial.
Like his prosecutorial misconduct claim, Moody’s cumulative error claim was first raised in his
traverse brief and was therefore not properly before the district court. See id. In any event, claims
of cumulative error are not cognizable on federal habeas review. See Moore v. Parker, 425 F.3d

•4*

No. 20-3618
-7250,256 (6th Cir. 2005). Jurists of reason could not disagree with the district court’s dismissal of
Moody’s cumulative error claim.
For these reasons, the court DENIES Moody’s motion for a certificate of appealability.
Moody’s motion for leave to proceed in forma pauperis on appeal and his motion for appointment
of counsel are DENIED as moot.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

,

Case: 3:18-cv-00139-WHR-MRM Doc #: 46 Filed: 05/18/20 Page: 1 of 9 PAGEID #: 1758

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
CURTIS MOODY,
Petitioner,
Case No. 3:18-cv-139

v.
TOM SCHWEITZER, Warden,
Lebanon Correctional Institution,

JUDGE WALTER H. RICE

Respondent.

DECISION AND ENTRY ADOPTING UNITED STATES MAGISTRATE
JUDGE'S REPORT AND RECOMMENDATIONS (DOC. #27) AND
SUPPLEMENTAL REPORT AND RECOMMENDATIONS (DOC. #38);
OVERRULING PETITIONER'S OBJECTIONS THERETO (DOCS. ##36,
43); DISMISSING WITH PREJUDICE PETITION FOR WRIT OF
HABEAS CORPUS (DOC. #1 AS AMENDED BY DOC. #7); DENYING
CERTIFICATE OF APPEALABILITY AND LEAVE TO APPEAL IN
FORMA PAUPERIS; JUDGMENT TO ENTER IN FAVOR OF
RESPONDENT AND AGAINST PETITIONER; TERMINATION ENTRY

Petitioner Curtis Moody was convicted of murder, felonious assault and
having weapons while under disability. Moody's judgment was affirmed on direct
appeal. State i/. Moody, 2016-Ohio-8366, 2016 WL 7496642 (2d Dist. Dec. 23,
2016).
Moody filed a Petition Under 28 U.S.C. § 2254 for Writ of Habeas Corpus,
Doc. #1, asserting five Grounds for Relief. Before Respondent answered, Moody
amended his Petition to include another Ground for Relief, Doc. #7. In his
Traverse, Doc. #22, Moody attempts to add two additional Grounds for Relief.

,

Case: 3:18-cv-00139-WHR-MRM Doc #: 46 Filed: 05/18/20 Page: 2 of 9 PAGEID #: 1759

United States Magistrate Judge Michael R. Merz issued a Report and
Recommendations, Doc. #27, recommending that the Court dismiss the Petition
with prejudice, and deny a certificate of appealability and leave to appeal in forma
pauperis. Moody filed Objections to that judicial filing, Doc. #36. The Court then
recommitted the matter to Magistrate Judge Merz, Doc. #37, who issued a
Supplemental Report and Recommendations, Doc. #38, again recommending
dismissal-with prejudiceT Moody has filed Objections, Doc._#43, to the
Supplemental Report and Recommendations.
The Court must make a de novo review of those portions of the Reports and
Recommendations to which proper Objections have been filed. Fed. R. Civ. P.
72(b)(3); 28 U.S.C. §636(b)(1).
Based on the reasoning and citations of authority set forth by Magistrate
Judge Merz in his Report and Recommendations, Doc. #27, and Supplemental
Report and Recommendations, Doc. #38, as well as upon a thorough de novo
review of this Court's file and the applicable law, the Court ADOPTS said judicial
filings in their entirety. The Court OVERRULES Petitioner's Objections, Docs.
##36, 43.

In the First Ground for Relief, Petitioner claims that the trial court's refusal to
suppress photo identification evidence violated his due process rights. There were
several eyewitnesses to Moody's murder of Jeffrey Farr. The first eyewitness
interviewed by the~police was shown a computer-generated photo array with six
2

•

Case: 3:18-cv-00139-WHR-MRM Doc ,#: 46 Filed: 05/18/20 Page: 3 of 9 PAGEID #: 1760

photographs, including Moody's and D.W.'s. The eyewitness identified D.W. as
the shooter. Because the detective forgot to save that photo array in his
computer, he had to generate a new photo array when other eyewitnesses were
interviewed the following week. The new photo array did not include D.W.'s
photograph. All other eyewitnesses identified Moody as the shooter.
The Second District Court of Appeals held that the trial court properly
overruled the motion to suppress the pretrial identifications because the photo
arrays were not "unduly suggestive." Moody, 2016-Ohio-8366, at 133. The Court
agrees with Magistrate Judge Merz that the Second District's decision is neither
contrary to, nor an objectively unreasonable application of, controlling Supreme
Court precedent as set forth in Neil v. Biggers, 409 U.S. 188 (1972), and Manson
v. Brathwaite, 432 U.S. 98 (1977). Nor did it rest on an unreasonable
determination of the facts.
As the Magistrate Judge explained, nothing about the fact that D.W.'s photo
was not included in the subsequent photo arrays renders those arrays "unduly
suggestive," and it is purely speculative to suggest that the other eyewitnesses
would not have identified Moody as the shooter if D.W.'s photo had been included.
Moreover, there is no evidence of bad faith on the part of the detective who failed
to save the initial photo array. The Court therefore DISMISSES the First Ground
for Relief WITH PREJUDICE.

3

.

Case: 3:18-cv-00139-WHR-MRM Doc,#: 46 Filed: 05/18/20 Page: 4 of 9 PAGEID #: 1761

II.
In his Second Ground for Relief, Moody maintains that the trial court
deprived him of a fair trial when it failed to grant his attorney's oral motion to
continue the trial. He points to a sidebar conversation at trial in which his attorney
objected to the presentation of still photographs of Farr's body, which were taken
from the police cruiser video. The attorney, noting that he had just received the
"photOgraphsTwdHays earlier;“"rehewed" his objection "based on the request for a
continuance, because I just saw these on Saturday." The court overruled the
objection. Doc. #15-3, PagelD##823-24.
Moody maintains that the prosecution's failure to produce the photographs
in a timely manner violated Brady v. Maryland, 373 U.S. 83 (1963), and that the
court erred in failing to grant a continuance. The Second District Court of Appeals
held that, even assuming that this was Brady material, there was no Brady
violation because the material was disclosed prior to trial and there was no
indication that Moody was prejudiced by the delay. 2016-Ohio-8366, at f45. The
court also noted that, despite defense counsel's reference to a "renewed
objection," there was no written motion and the transcript contains no discussion
of an earlier request for a continuance. Moreover, there was no suggestion at the
sidebar of any prejudice. Id. at f 40. The Second District concluded that, based
on the limited record and the lack of apparent prejudice, the trial court did not
abuse its discretion in refusing to continue the trial.

4

Id. at 1 41.

Case: 3:18-cv-00139-WHR-MRM Doc.#: 46 Filed: 05/18/20 Page: 5 of 9 PAG El D #: 1762

Magistrate Judge Merz found, and the undersigned agrees, that the still
photographs are not Brady material. Moody admits that the state used them to
bolster the case against him, and he makes no effort to explain how the photos are
exculpatory or how he could have used them to impeach the State's witnesses.
Moreover, under the circumstances presented here, Moody has not demonstrated
that the denial of the request for a continuance rose to the level of a due process
violation. See Ungar vrSarafite, ^lQ US. 575, 589 (1964) (holding that this is a
matter within the discretion of the trial judge, and not all denials of requests for
additional time violate due process).
Accordingly, the Court DISMISSES the Second Ground for Relief WITH
PREJUDICE.
III.
In the Third Ground for Relief, Moody argues that the trial court abused its
discretion in designating Zanetta White, the mother of two of Moody's children.
and Rhonda Alves, Moody's mother, as court witnesses. The Second District held
that the court did not designate White as a court's witness and did not commit
plain error in allowing the State to ask her leading questions. 2016-Ohio-8366, at
1158-60. The trial court did designate Alves as a court's witness, but only after

To the extent Moody also argues that the photographs were not properly
authenticated, this is a matter of state evidence law, not cognizable in habeas
corpus.

5

Case: 3:18-cv-00139-WHR-MRM Doc #: 46 Filed: 05/18/20 Page: 6 of 9 PAGEID #: 1763

her evasive testimony concerning what she saw. The Second District found no
abuse of discretion. Id. at 1161-62.
Magistrate Judge Merz recommended dismissing this claim because whether
the trial judge abused his or her discretion is a state law question, not a
constitutional question. Although Moody continues to explain why he believes the
trial court abused its discretion, he does not address the fact that this claim is not
cognizable in habeas corpus. The Court therefore DISMISSES the Third Ground for
Relief WITH PREJUDICE.

IV.
In his Fourth Ground for Relief, Moody argues that his due process rights
were violated when multiple witnesses introduced hearsay statements at trial.
Magistrate Judge Merz properly found that this is a state law evidence question
that is not cognizable in habeas corpus. The Fourth Ground for Relief is subject to
DISMISSAL WITH PREJUDICE on this basis.

V.
With respect to the Fifth Ground for Relief, Moody, in his Traverse, raised
numerous claims of prosecutorial misconduct that were not asserted in his
Petition.2 Magistrate Judge Merz correctly concluded that these claims are not
properly before the Court and should be DISMISSED WITH PREJUDICE.

2 The Fifth Ground for Relief, as asserted in the Petition, raises a claim of "fraud
on the court." In his Traverse, Moody moves this to "Ground Eight."

6

■

Case: 3:18-cv-00139-WHR-MRM Doc #: 46 Filed: 05/18/20 Page: 7 of 9 PAGEID #: 1764

VI.
In his Sixth Ground for Relief, Moody argues that the trial court violated his
Fifth and Sixth Amendment rights by allowing ex parte communications and
conducting proceedings without his presence. More specifically, he challenges the
trial court's handling of a note from the jury during deliberations.
Magistrate Judge Merz found that this claim is procedurally defaulted.

It

also fails on the merits because the record shows that there was no ex parte
communication. Counsel for both sides was present during the conference in
which the court discussed the jury note.3
Moody also appears to challenge the fact that the trial court responded to
the jury note by replaying the portions of the jail phone calls that had been played
in court. Magistrate Judge Merz noted that defense counsel agreed to that course
of action, thereby waiving any objection. To the extent that Moody argues that his
attorney provided ineffective assistance in failing to object, that claim is________ _
procedurally defaulted.
For the reasons set forth by Magistrate Judge Merz, the Court DISMISSES
the Sixth Ground for Relief WITH PREJUDICE.

3 To the extent that Moody now argues that he had a right to be physically
present during this in-chambers conference, Magistrate Judge Merz notes that this
claim is procedurally defaulted.
7

,

Case: 3:18-cv-00139-WHR-MRM Doc #: 46 Filed: 05/18/20 Page: 8 of 9 PAGEID #: 1765

VII.
In his Traverse brief, Moody asserts a claim of cumulative error. Like the
claims of prosecutorial misconduct, this claim was not pled in the Petition.
Because the claim of cumulative error is not properly before the Court, the Court
DISMISSES it WITH PREJUDICE.
VIII.
~

As-previously noted, Moody's claim of fraud on the court was originally pled

as the Fifth Ground for Relief. This claim is based on the introduction of an
autopsy diagram allegedly showing Mr. Farr's entrance and exit wounds. At trial,
the chief deputy coroner testified that he did not prepare the document and had
never seen it.
Magistrate Judge Merz properly found that this claim is procedurally
defaulted. It also fails on the merits. The exhibit was not introduced by the
prosecution, but rather by Moody's own attorney on cross-examination, and the
chief deputy coroner insisted that it was inaccurate. These circumstances simply
do not support a claim of fraud on the court.
IX.
For the reasons explained above, the Court ADOPTS Magistrate Judge
Merz's Report and Recommendations and Supplemental Report and
Recommendations, Docs. ##27, 38, and OVERRULES Petitioner's Objections
thereto, Docs. ##36, 43.

8

. -

,

Case: 3:18-cv-00139-WHR-MRM Doc

46 Piled: 05/18/20 Page: 9 of 9 PAG El D #: 1766

The Petition Under 28 U.S.C. § 2254 for Writ of Habeas Corpus, Doc. #1,
as amended by Doc. #7, is DISMISSED WITH PREJUDICE.
Given that Petitioner has not made a substantial showing of the denial of a
constitutional right and, further, that the Court's decision herein would not be
debatable among reasonable jurists, and because any appeal from this Court's
decision would be objectively frivolous, Petitioner is denied a certificate of
appealability,-andHs denied leave to appeal in forma pauperis.
Judgment will be entered in favor of Respondent and against Petitioner.

The captioned case is hereby ordered terminated upon the docket records of
the United States District Court for the Southern District of Ohio, Western Division,
at Dayton.

Date: May 18, 2020
WALTER H. RICE
UNITED STATES DISTRICT JUDGE

9

No. 20-3618
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CURTIS MOODY,

)
)
)
)
)
)
)
- )
)
)
)

Petitioner-Appellant,
v.
CHAE HARRIS, WARDEN,
Respondent-Appellee.

FILED

Sep 29, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SILER, MOORE, and BUSH, Circuit Judges.
Curtis Moody, a pro se Ohio prisoner, petitions the court to rehear en banc its order
denying him a certificate of appealability. The petition has been referred to this panel, on which
the original deciding judge does not sit, for an initial determination on the merits of the petition for
rehearing. Upon careful consideration, the panel concludes that the original deciding judge did
not misapprehend or overlook any point of law or fact in issuing the order and, accordingly,
declines to rehear the matter. See Fed. R. App. P. 40(a).
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

fp ft n

(Hhe J^upreme Court of (©Ijta P

f£53

if L It

NOV -1 2017

«^Kc$5#i?U
State of Ohio
v.

i
I

Case No. 2017-1224

<

ENTRY

■5

Curtis A. Moody

>

Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).
(Montgomery County Court of Appeals; No. 26926)

Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at http://wmv.supremecourt.ohio.gov/ROD/docs/

ft

